OIG Investigative Reports, Sacramento-June , 2010 -Sacramento Residents Charged In Federal Student Loan Fraud Ring
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
United States Attorney Benjamin B. Wagner
Eastern District of California
For Immediate Release
Thursday, June 3, 2010
www.usdoj.gov/usao/cae
Contact: Lauren Horwood
(916) 554-2706
usacae.edcapress@usdoj.gov
Docket #: 2:09-cr-00422-WBS
SACRAMENTO RESIDENTS CHARGED IN FEDERAL STUDENT LOAN FRAUD RING
SACRAMENTO -- United States Attorney Benjamin B. Wagner announced today that a
federal grand jury returned a twenty-six count superseding indictment charging Nakesha
Sharrieff, aka Takiyah Raheem and Aysia Hanifah Kahan, 23, Thomas Keys 23, Jarmal
Duplessis 22, Hoa Tasha Kelly, aka Tasha Kelly, 24, Jewel Minor, 24, and Teaona Williams, 24,
all of Sacramento, with various charges relating to a student loan fraud ring that operated from
2004 through most of 2009. Sharrieff, Keys, and Dupless had previously been charged by
indictment in October 2009. The superseding indictment continues the charges against these
defendants, adds some charges relating to Sharrieff, and brings charges for the first time against
Kelly, Minor, and Williams. Defendants Williams and Kelly were arrested yesterday in
Sacramento. All defendants are charged with conspiring to obtain federal financial aid by fraud
or deceit. Sharrieff, Kelly, Minor, and Williams are charged with mail fraud; Sharrieff is also
charged with two
This case is the product of an extensive investigation by the Department of Education -
Office of the Inspector General, with assistance during the arrests from the Sacramento Police
Department. Assistant United States Attorney Jean M. Hobler is prosecuting the case.
According to the indictment, Kelly, Minor, and Williams acted as recruiters for Sharrieff
- finding individuals who were willing to supply their names, dates of birth, and social security
numbers. Sharrieff then used the information to obtain federal student assistance funds
(financial aid) for attendance at American River College, in the Los Rios Community College
District. None of the "straw students" who provided their personal information had any
intention of attending school. Instead, the indictment alleges that when the checks were mailed
to addresses associated with Sharrieff, Williams, Kelly, and/or Minor, some or all of them met
the straw students at banks or check cashing locations where the checks were cashed and the
proceeds split between the straw student, Sharrieff, and the recruiter. Through the scheme, over
$200,000 in federal financial aid funds were fraudulently obtained. Keys and Duplessis are
charged as co-conspirators for their roles in the scheme as "straw students."
The indictment also alleges that Sharrieff stole identities from two individuals and used
them to obtain federal financial aid. Sharrieff is also charged with obstructing law enforcement,
for attempting to prevent witnesses from speaking with law enforcement. Sharrieff allegedly
sent a message that one witness needed to "keep his mouth shut," and would have "a price on
his head."
"In these tough economic times, federal financial aid must be preserved for real students
who are working hard to make better lives for themselves and their families," said United States
Attorney Benjamin B. Wagner. "Our office will work with the Department of Education to do
everything possible to seek out and punish people who game the system and steal the financial
aid that is so crucial to those who truly want and need to go to school."
"I want to commend OIG Special Agents and our partners in law enforcement whose
actions brought about the indictment and arrests. I would also like to thank the staff of the
American River College for referring this matter to our office," said Kathleen S. Tighe, Inspector
General of the U.S. Department of Education. "Working together, we will aggressively pursue
anyone who steals student financial aid and hold them accountable for their unlawful actions."
The maximum statutory penalty for the conspiracy charge is five years incarceration, a
$250,000 fine, or both. The statutory maximum for mail fraud and obstruction is twenty years
incarceration, a $250,000 fine, or both. The penalty for aggravated identity theft is a mandatory
two years incarceration consecutive to any sentence for other convictions in the case. The actual
sentence, however, will be determined at the discretion of the court after consideration of any
applicable statutory factors and the Federal Sentencing Guidelines, which take into account a
number of variables.
The charges are only allegations and the defendants are presumed innocent until and
unless proven guilty beyond a reasonable doubt.
Printable view
Last Modified: 06/04/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov